                                             Office of Inspector General
                                            Corporation for National and
                                                     Community Service




           FEDERAL INFORMATION SYSTEM
 MANAGEMENT ACT (FISMA) REVIEW FOR FY 2011
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                  FINAL


           NOVEMBER 10, 2011




                Prepared by:

     Richard S. Carson & Associates, Inc.
      4720 Montgomery Lane, Suite 800
         Bethesda, Maryland 20814
Final                                                                                            Independent Evaluation Report
                                                       Corporation for National and Community Service FISMA Review for FY 2011


                                                     TABLE OF CONTENTS


Executive Summary .................................................................................................................... ii
    Results in Brief ......................................................................................................................... ii
Abbreviations And Acronyms .................................................................................................. iv
Referenced Documents .............................................................................................................. v
General Overview ........................................................................................................................ 1
Independent Evaluation ............................................................................................................. 1
Security Program Evaluation ..................................................................................................... 2
        CONCLUSIONS ....................................................................................................................... 2
Evaluation of Agency Oversight of Contractor ........................................................................ 3
        CONCLUSIONS ....................................................................................................................... 3
Evaluation of Agency Plan of Action and Milestones (POA&M) Process.............................. 3
        CONCLUSIONS ....................................................................................................................... 3
State Field Office Assessments ................................................................................................ 4
        CONCLUSIONS ...................................................................................................................... 4
        RECOMMENDATIONS .............................................................................................................. 4
Appendix A – Detailed Findings and Recommendation.......................................................... 5
Appendix B – Corporation Management Response ................................................................ 7




                                                                        i                                               November 10, 2011
Final                                                                           Independent Evaluation Report
                                      Corporation for National and Community Service FISMA Review for FY 2011




EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation) contracted with Richard S. Carson & Associates, Inc. (Carson) to perform a Fiscal
Year (FY) 2011 independent Federal Information Security Management Act (FISMA) evaluation
of the Corporation’s information technology systems, controls, and policies. The objectives of
the evaluation were to:

       Determine the efficiency and effectiveness of the Corporation’s information security
        policies, procedures, and practices
       Review network/system security of a representative subset of the Corporation’s systems
       Assess the Corporation’s compliance with FISMA and related information security
        policies, procedures, standards, and guidelines
       Assess the Corporation’s progress in correcting weaknesses identified in prior-year
        FISMA evaluations
       Evaluate personally identifiable information (PII) protection and physical controls at field
        office sites

RESULTS IN BRIEF

The Corporation has taken significant steps to enhance its information security program and
address issues identified in the FY 2010 FISMA report, including the following:

       The Certification and Accreditation (C&A) process has been re-worked to ensure full
        compliance with the National Institute of Standards and Technology (NIST) guidance,
        provide better documentation, and increase assurance that controls have been
        adequately assessed. Specific improvements include:

        o   Continued development of policies and procedures;
        o   Continued oversight of the technology contractor SRA International, Inc. (SRA) and
            other contracted services;
        o   Scanning to include field office site networks and Corporation headquarters
            systems;
        o   Continued training in proper protection and handling of PII information for field office
            staff; and
        o   Documentation of processes and controls

We have made five recommendations in areas needing improvement to further enhance
compliance with the Corporation’s information security program. The recommendations are
summarized on page 5 of this report.




                                                  ii                                     November 10, 2011
Final                                                                          Independent Evaluation Report
                                     Corporation for National and Community Service FISMA Review for FY 2011


Corporation Response

Carson will review the Corporation’s response to the Notification of Findings and
Recommendations, which will be included as Attachment B.

BACKGROUND

On December 17, 2002, President George W. Bush signed into law the E-Government Act of
2002 (Public Law 107-347), which includes Title III, the Federal Information Security
Management Act (FISMA) of 2002. FISMA permanently reauthorized the framework laid out in
the Government Information Security Reform Act (GISRA) of 2000, which expired in November
2002.

FISMA outlines the information security management requirements for agencies, including the
requirement for annual review and independent assessment by agency inspectors general. In
addition, FISMA includes new provisions aimed at further strengthening the security of the
Federal Government’s information and information systems, such as the development of
minimum standards for agency systems. The annual assessments provide agencies with the
information needed to determine the effectiveness of overall security programs and to develop
strategies and best practices for improving information security.

FISMA requires all Federal agencies to implement and maintain information security policies,
procedures, and control techniques to ensure that information is protected commensurate with
the risk and magnitude of the harm that would result from the loss, misuse, unauthorized
access, or modification of such information.




                                                 iii                                    November 10, 2011
Final                                                                      Independent Evaluation Report
                                 Corporation for National and Community Service FISMA Review for FY 2011


ABBREVIATIONS AND ACRONYMS

C&A               Certification and Accreditation
CCB               Change Configuration Board
CIO               Chief Information Officer
CISO              Chief Information Security Officer
CM                Configuration Management
COOP              Continuity of Operations Plan
CP                Contingency Plan


E-SPAN            Electronic-System for Programs, Agreements, and National Service

FIPS              Federal Information Processing Standards
FISMA       Federal Information Security Management Act

FY                Fiscal Year

GSS               General Support System

IG                Inspector General
ISSO              Information System Security Officer
IT                Information Technology

LAN               Local Area Network


NIST              National Institute of Standards and Technology

OIG               Office of Inspector General
OIT               Office of Information Technology
OMB               Office of Management and Budget

PII               Personally Identifiable Information
PIA               Privacy Impact Assessment
POA&M             Plan of Action and Milestones

RA                Risk Assessment

SDLC              System Development Life Cycle
SETA              Security Education, Training, and Awareness
SP                Special Publication
SSP               System Security Plan

US-CERT           United States Computer Emergency Readiness Team




                                             iv                                     November 10, 2011
Final                                                                         Independent Evaluation Report
                                    Corporation for National and Community Service FISMA Review for FY 2011


REFERENCED DOCUMENTS

Federal Information Security Management Act of 2002 (FISMA) (Title III, Pub. L. No. 107-347)

Office of Management and Budget (OMB)
Circular A-130, Appendix III, Security of Federal Automated Information Resources
Memorandum 07-19, FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management
Memorandum 07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information
Memorandum 06-15, Safeguarding Personally Identifiable Information
Memorandum 03-22, OMB Guidance for Implementing the Privacy Provisions of the E-
Government Act of 2002

NIST Federal Information Processing Standards (FIPS)
FIPS 200, Minimum Security Requirements for Federal Information and Information Systems
FIPS 199, Standards for Security Categorization of Federal Information and Information
Systems

NIST Special Publications (SP)
800-18, Revision 1, Guide for Developing Security Plans for Information Technology Systems
800-30, Risk Management Guide for Information Technology Systems
800-34, Revision 1, Contingency Planning Guide for Information Technology Systems
800-37, Revision 1, Guide for Applying the Risk Management Framework to Federal Information
Systems: A Security Life Cycle Approach
800-53, Revision 3, Recommended Security Controls for Federal Information Systems
800-53A, Revision 1, Guide for Assessing the Security Controls in Federal Information Systems
800-60, Revision 1, Guide for Mapping Types of Information and Information Systems to
Security Categories: (2 Volumes) - Volume 1: Guide Volume 2: Appendices
800-83, Guide to Malware Incident Prevention and Handling
800-100, Information Security Handbook: A Guide for Managers




                                                v                                      November 10, 2011
FINAL                                                                          Independent Evaluation Report
                                     Corporation for National and Community Service FISMA Review for FY 2011



GENERAL OVERVIEW

FISMA section 3542(b)(1)(A),(B),(C) defines information security as “… protecting information
and information systems from unauthorized access, use, disclosure, disruption, modification, or
destruction in order to provide (A) integrity—guarding against improper information modification
or destruction, and ensuring information non-repudiation and authenticity; (B) confidentiality—
preserving authorized restrictions on access and disclosure, including means for protecting
personal privacy and proprietary information; and (C) availability—ensuring timely and reliable
access to and use of information.”

INDEPENDENT EVALUATION

Field work for this independent evaluation was conducted from June through October 2011 and
covered the following Corporation systems: the Corporation network (Network GSS); Electronic
System for Programs, Agreements and National Service (E-SPAN), and the HP-Helpdesk. Our
evaluation methodology is compliant with the Council of Inspectors General on Integrity and
Efficiency (CIGIE), “Quality Standards for Inspections and Evaluations,” and consists of
inquiries, observations, and inspection of Corporation documents and records, as well as direct
testing of controls in order to conclude the evaluation.

This section provides the conclusions of our research, analysis, and assessment of the
Corporation’s information security program, policies, and practices. Compliance with security
policy, standards, and guidance prescribed by the Office of Management and Budget (OMB),
the National Institute for Standards and Technology (NIST), and related authoritative policies,
procedures, standards, and guidelines (criteria), where applicable, are cited when describing a
specific condition.

The Corporation has taken significant steps to enhance its information security program and
address issues identified in prior FISMA evaluations. It has outsourced its technology activities
with regard to Network core services, as well as the Exchange services, Blackberry Enterprise
services, and “shared” drive services to SRA International, Inc. The Corporation and SRA are in
the process of addressing procedures in the following areas:

       System security plan
       POA&M execution and continuous monitoring
       Policy and procedures




                                                 1                                      November 10, 2011
FINAL                                                                          Independent Evaluation Report
                                     Corporation for National and Community Service FISMA Review for FY 2011



SECURITY PROGRAM EVALUATION

FISMA requires the development, documentation, and implementation of an agency-wide
information security program to provide information security for the information and information
systems that support the operations and assets of the agency, including those provided by or
managed by another agency, contractor, or other sources. NIST Special Publication (SP) 800-
100, “Information Security Handbook: A Guide for Managers,” identifies information security
program elements that are expected to be incorporated into information security programs
across the Federal sector.

CONCLUSIONS

The Corporation has documented an Information Security Program Plan that adequately
addresses security program elements recommended by NIST guidance, including:

       Formal information security governance structure
       Integrating security into the System Development Life Cycle (SDLC)
        o Periodic assessments of risk
        o Policies and procedures that are based on these risk assessments
       Security awareness training
       Plans for providing adequate information security for networks, facilities, information
        systems, or groups of information systems, as appropriate
       Periodic testing and evaluation of the effectiveness of information security policies,
        procedures, practices, and security controls
        o A process for planning, implementing, evaluating, and documenting remedial actions
            to address any deficiencies in the information security policies, procedures, and
            practices of the organization
        o Configuration management processes to manage the effects of changes or
            differences in configurations on an information system or network
       Procedures for detecting, reporting, and responding to security incidents
       Plans and procedures for continuity of operations for information systems that support
        the operations and assets of the organization




                                                 2                                      November 10, 2011
FINAL                                                                           Independent Evaluation Report
                                      Corporation for National and Community Service FISMA Review for FY 2011



EVALUATION OF AGENCY OVERSIGHT OF CONTRACTOR

FISMA requires that Federal agencies perform oversight and evaluations to ensure information
systems used or operated by a contractor, or other organization on behalf of the agency, meet
the requirements of FISMA, OMB policy, NIST guidelines, and Corporation policy. FISMA
Section 3544(a) (1) (A) (ii) describes Federal agency security responsibilities as including
“information systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.” Section 3544(b) requires that each agency provide
information security for the information and “information systems that support the operations
and assets of the agency, including those provided or managed by another agency, contractor,
or other source.”

OMB Memorandum 07-19, FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management states: “Agencies are responsible for
ensuring the security of information systems used by a contractor of their agency or other
organization on behalf of their agency. Agencies and service providers have a shared
responsibility for FISMA compliance.”

The Corporation in FY 2009 began an effort to outsource the hosting and maintenance of
information assets associated with its Network core services, Exchange services, Blackberry
Enterprise services, and “Shared” drive services. It completed the outsourcing and equipment
migration effort in early FY 2010 to SRA International, Inc.

CONCLUSIONS

The Corporation maintains oversight of SRA through weekly meetings with SRA’s Information
System Security Officer (ISSO) in which all tasks conducted are reviewed and planned. The
Corporation’s Chief Information Security Officer (CISO) and SRA’s ISSO meet weekly for
service updates and also use the Change Control Board (CCB) to monitor the progress of the
vendor. A Weekly Transition and Operations meeting is conducted with the COTR, the ISSO,
Corporation personnel, and other SRA personnel. The Corporation has documented contract
requirements that include continuous monitoring language.


EVALUATION OF AGENCY PLAN OF ACTION AND MILESTONES (POA&M) PROCESS

OMB guidance on FISMA implementation requires agencies to identify and report on significant
deficiencies in their information security program. A significant deficiency is a weakness in the
agency’s overall information system security program or management control structure, or
within one or more information systems, that significantly restricts the capability of agency to
carry out its mission or compromises the security of its information, information systems,
personnel, or other resources, operations, or assets.

CONCLUSIONS

The Corporation’s Information Security Policy requires that POA&Ms be maintained for the
security program and for each major system. It also requires that any official reports providing
specific information on weaknesses or vulnerabilities resulting from OIG audits, reviews, or
scanning activity related to such work as risk assessments, certification testing, or penetration
testing be documented and tracked as part of the specific system POA&M documentation.



                                                  3                                      November 10, 2011
FINAL                                                                           Independent Evaluation Report
                                      Corporation for National and Community Service FISMA Review for FY 2011




POA&Ms for the E-Span and the network systems have been documented and are being
addressed. Most of the POA&M milestone and completion dates are based on the completion
of the outsourcing and data center migration in FY 2010. No exceptions were found with the
POA&M tracking and vulnerability mitigation process. This was verified by review of the
POA&M documentation from the FY 2010 C&A process.


STATE FIELD OFFICE ASSESSMENTS

State field office assessments were conducted on three state field offices and one AmeriCorps
National Civilian Community Corps (NCCC) campus, evaluating environmental controls,
physical controls, and PII protection. The following sites were reviewed: Detroit, MI;
Minneapolis, MN; Sacramento, CA; and Los Angeles, CA. As part of our assessment strategy,
workspace and office suite areas were inspected for PII exposure.

CONCLUSIONS

The field office findings included instances of PII information exposure, PII hardcopy violations,
drive storage violations, physical access violations, and infrastructure physical protection issues.


RECOMMENDATION

We recommend that the existing Corporation policy for protecting and handling of PII be
referenced and enforced. All forms of PII (paper and electronic) must be stored in designated
file cabinets. Recycling bins used to store PII before it can be properly destroyed must be
secured to prevent unauthorized access.




                                                  4                                      November 10, 2011
FINAL                                                                          Independent Evaluation Report
                                     Corporation for National and Community Service FISMA Review for FY 2011



APPENDIX A – DETAILED FINDINGS AND RECOMMENDATION

Findings and Recommendations

Notification of Finding # 1: The ESPAN annual assessment test plan and test documentation
is insufficient because it does not provide procedures for testing controls, the dates when the
controls are tested, or links to the source documentation to show evidence of the testing.


Recommendation(s)

        We recommend that CNCS conduct annual assessments in a more structured, planned
        process that provides detailed information regarding test dates, explanation of testing
        procedures, and links from the controls to the source documents.


Notification of Finding # 2: There are no agreements defining the level of service for the HP
help desk’s fax location or documentation stating that the fax location is in compliance with
CNCS security requirements. The Certification and Accreditation documentation lists four areas
within the HP boundary: Chicago, IL; Santa Clara, CA; London, KY; and Orlando, FL. The
Montgomery, AL, facility is not included within the C&A boundary.


Recommendation(s)

        We recommend that CNCS require HP to develop an SLA or provide C&A
        documentation for the fax location in Montgomery. We also recommend that the
        Montgomery facility be included within the C&A boundary to ensure that the proper
        security controls are in place to protect CNCS information.


Notification of Finding # 3: There is no Service Level Agreement (SLA) or Certification and
Accreditation documentation for the SRA help desk regarding its use of a third-party vendor,
ServiceNow (HP help desk’s Fax location), to document and track help desk calls and requests
for the CNCS network and computing environment.

Recommendation(s)

        We recommend that SRA include the ServiceNow server as part of the CNCS network
        boundary and require SRA to provide either a SLA or C&A documentation for it.


Notification of Finding # 4: Personally Identifiable Information (PII) was found exposed in the
office suite of the Michigan State office. Documents were found containing names, Social
Security Numbers (SSN), and addresses in a box in an open, unlocked supply room.




                                                 5                                      November 10, 2011
FINAL                                                                          Independent Evaluation Report
                                     Corporation for National and Community Service FISMA Review for FY 2011



Recommendation(s)

        We recommend that CNCS require all office directors to conduct semiannual office walk-
        throughs to detect instances of unsecured PII. If a violation is detected, PII documents
        should be secured or disposed of in a secure manner. The results of the walk-through
        should be reported to the Chief Information Security Officer or designee.

Notification of Finding # 5: Our review of the CNCS Information Security Policies (CNCS ISP)
disclosed several references to a CNCS record retention policy. However, we were not provided
a copy of this policy and, therefore, could not validate its’ existence.


Recommendation(s)

        We recommend that CNCS develop a record retention policy that speaks directly to the
        procedures required by NARA and issue this policy to field office directors.




                                                 6                                      November 10, 2011
FINAL                                                                   Independent Evaluation Report
                              Corporation for National and Community Service FISMA Review for FY 2011



APPENDIX B – CORPORATION MANAGEMENT RESPONSE




                                          7                                      November 10, 2011
NATIONAL&:
COMMUNITY
SERVICE me
      November 9, 2011


      TO:            Robert J. Walters
                     Assistant Inspector General Investigations

      THRU:          Robert Velasco, II
                     Acting Chief Executive Officer

      FROM:          Philip Clark
                     Chief Information Officer

      Subject: Corporation Comments on OIG FISMA Review Report for Fiscal Year 2011

      Thank you for the opportunity to comment on the OIG FISMA report for Fiscal Year
      2011. As noted in the report, the Corporation has taken steps in FY 2011 to continue to
      improve its information security program and compliance with FISMA. We
      acknowledge that there is still work to do, and have a number of initiatives planned for
      FY 2011 to further enhance the program.

      Corporation Response
      The Corporation has reviewed and concurred with three of the findings and
      recommendations presented and did not concur with two of the findings in the report.
      Indeed, the recommendations are in alignment with CNCS' Strategic Technology and
      ongoing information assurance projects. Key accomplishments in FY 2011 include:

         •    Continued updating of information assurance documentation to ensure
              compliance with NIST and OMB privacy and system security guidance.
         •    Completed vulnerability scanning of public-facing elements ofCNCS systems.
         •    Hired a system security engineer and acquired scanning software to ensure that
              new vulnerabilities are not introduced into CNCS systems.
         •    Continuation of efforts to work with external system providers to the Corporation
              to comply with FISMA requirements.

      The Corporation will continue to review and refine our information security and privacy
      programs in the upcoming fiscal year. If you have any questions about this response or
      the planned activities, please contact the Corporation's ChiefInformation Security
      Officer, Laurie Young at (202) 606-6662.



                                         12:4 0)U.,,~
                                           Philip W/Clark
                                           Chief Information Officer



                    Senior Corps   * AmeriCorps * Learn and Serve America
    1201 New York Avenue, NW    * Washington, DC 20525 * 202-606-5000 * www.nationalservice.gov
                             FY 2011 FISMA Independent Evaluation
                    Corporation for National and Community Services (CNCS)
                                            Finding 1



Finding # 1: The ESPAN annual assessment test plan and test documentation is insufficient
because it does not provide procedures for testing controls, the dates when the controls are
tested, or links to the source documentation to show evidence of the testing.


Recommendation(s)

       We recommend that CNCS conduct annual assessments in a more structured, planned
       process that provides detailed information regarding test dates, explanation of testing
       procedures, and links from the controls to the source documents.

Management Response

           Management concurs with the Notification of Finding.

           Management does not concur with the Notification of Finding.

The Security and Testing Evaluation (ST&E) spreadsheet used by the Corporation has been
found acceptable in previous years by Financial Auditors and the FISMA Reviewers. The
Corporation’s testing control procedures (Assessment Method, Assessment Objects, and
Assessment Tool columns fields from the CNCS ST&E spreadsheet) are from the
comprehensive set of assessment procedures as described in Appendix F of NIST SP800-53A,
Guide for Assessing the Security Controls in Federal Information Systems. There has been no
recent change to NIST guidance in this area. CNCS sees no need to depart from what has
been accepted practice.

The “Projected Review Date” on the spreadsheet reflects either the date that controls were
tested (meeting the NIST requirement), or a future date when testing is expected. CNCS will
change the title of this column to “Review Date” to eliminate any confusion in the future.

All documentation supporting the test of each control is contained in a separate file folder for
each control, meeting the NIST requirement to provide documentation for each control tested.
Links in the spreadsheet to the source documentation (Artifacts) is not a requirement by the
NIST and is not a valid basis for a finding. However, to make this review easier for auditors,
future assessments will link the artifacts to the corresponding control test on the spreadsheet.


OIG Comments

OIG concurs with OIT’s statement regarding making changes to the Security and Testing
Evaluation spreadsheet to avoid future confusion.
                            FY 2011 FISMA Independent Evaluation
                   Corporation for National and Community Services (CNCS)
                                           Finding 2



Finding # 2 There are no agreements defining the level of service for the HP help desk’s fax
location or documentation stating that the fax location is in compliance with CNCS security
requirements. The Certification and Accreditation documentation lists four areas within the HP
boundary: Chicago, IL; Santa Clara, CA; London, KY; and Orlando, FL. The Montgomery, AL,
facility is not included within the C&A boundary.


Recommendation(s)

       We recommend that CNCS require HP to develop a SLA or provide C&A documentation
       for the fax location in Montgomery. We also recommend that the Montgomery facility ld
       be included within the C&A boundary to ensure that the proper security controls are in
       place to protect CNCS information.


Management Response

          Management concurs with the Notification of Finding.

          Management does not concur with the Notification of Finding.

The Corporation agrees that National Service Hotline fax server that resides in London, KY was
not assessed during the certification. Various documents are faxed to the National Service
Hotline fax server that resides in London, KY. HP Help Desk employees receive, review, and
upload via VPN these faxes to a secure share on a CNCS server on behalf of the Trust.

Rather than certify the London, KY fax server, the Corporation will remove the fax server in
London, KY and establish a fax server at the CNCS headquarters. HP Help Desk employees
will continue to review the faxes, but through a VPN connection between HP and CNCS. The
new fax server and its associated controls will be assessed by the CNCS IA staff to ensure
compliance with Federal and agency security requirements. The HP Help Desk SSP will also
be updated to reflect this change.

The fax location at Montgomery, AL has not stored and will not store data, either as a
production or backup facility, and is therefore not subject to certification.


OIG Comments

OIG concurs.
                            FY 2011 FISMA Independent Evaluation
                     Corporation for National & Community Services (CNCS)
                                           Finding # 3


Finding # 3: There is no Service Level Agreement (SLA) or Certification and Accreditation
documentation for the SRA help desk regarding its use of a third-party vendor, ServiceNow, to
document and track help desk calls and requests for the CNCS network and computing
environment.


Recommendation(s)

       We recommend that SRA include the ServiceNow server as part of the CNCS network
       boundary and require SRA to provide either a SLA or C&A documentation for it.

       Management Response

           Management concurs with the Notification of Finding.

           Management does not concur with the Notification of Finding.

CNCS nonconcurs with the recommendation to place the ServiceNow application within the
CNCS network boundary. ServiceNow does not meet the criteria contained in guidance from
the National Institute of Standards and Technology (NIST) SP800-37, Guide for Applying the
Risk Management Framework to Federal Information Systems, for determining what elements
belong within the network boundary.

The guidance provides that: “The set of information resources allocated to an information
system defines the boundary for that system. Organizations have significant flexibility in
determining what constitutes an information system and its associated boundary. If a set of
information resources is identified as an information system, the resources are generally under
the same direct management control… In addition to consideration of direct management
control, it may also be helpful for organizations to determine if the information resources being
identified as an information system:
        • Support the same mission/business objectives or functions and essentially the same
          operating characteristics and information security requirements; and
        • Reside in the same general operating environment (or in the case of a distributed
          information system, reside in various locations with similar operating environments).”

Therefore, CNCS has designated ServiceNow as an external information system service. As
such, ServiceNow should have a SLA or a C&A. NIST also uses ServiceNow and is currently
conducting a C&A of that application. CNCS has decided to accept the NIST C&A for CNCS
purposes. CNCS has accepted the risk of operating ServiceNow pending the NIST C&A
completion (Waiver fY11-013), as has NIST. To mitigate the risk of operating this application
while certification is underway the CNCS Information Assurance team is coordinating access to
perform monthly non-intrusive vulnerability scans against the ServiceNow servers.
                           FY 2011 FISMA Independent Evaluation
                    Corporation for National & Community Services (CNCS)
                                          Finding # 3


OIG Comments

OIG concurs with OIT statements regarding the follow: 1) acceptance of NIST C&A for CNCS
purposes; and 2) stated plan of action to mitigate the risk of operating the ServiceNow
application while certification is underway. OIG also concurs with OIT’s statement regarding
why ServiceNow should not be part of the CNCS boundary.
                             FY 2011 FISMA Independent Evaluation
                    Corporation for National and Community Services (CNCS)
                                           Finding # 4



Finding # 4: Personally Identifiable Information (PII) was found exposed in the office suite of
the Michigan State office. Documents were found containing names, Social Security Numbers
(SSN), and addresses in a box in an open, unlocked supply room.


Recommendation(s)

       We recommend that CNCS require all office directors to conduct semiannual office walk-
       throughs to detect instances of unsecured PII. If a violation is detected, PII documents
       should be secured or disposed of in a secure manner. The results of the walk-through
       shall be reported to the Chief Information Security Officer or designee.

Management Response

           Management concurs with the Notification of Finding.

           Management does not concur with the Notification of Finding.

We concur with the finding and will have all office directors conduct semiannual office
walkthroughs which will be reported to the CISO. The Michigan office has rectified the situation.
They have inventoried the room and ensured that it now contains only materials that are public
and promotional in nature, and securely destroyed the document in question and the
Michigan State Director review the PII security of the office space and report his findings to his
direct supervisor—the North Central Cluster Area Manager—once per quarter.




OIG Comments

OIG concurs.
                           FY 2011 FISMA Independent Evaluation
                    Corporation for National & Community Services (CNCS)
                                           Finding 5



Finding # 5: Our review of the CNCS Information Security Policies (CNCS ISP) disclosed
several references to a CNCS record retention policy. However, we were not provided a copy of
this policy and, therefore, could not validate its’ existence.


Recommendation(s)

       We recommend that CNCS develop a record retention policy that speaks directly to the
       procedures required by NARA and issue this policy to field office directors.

Management Response

          Management concurs with the Notification of Finding.

          Management does not concur with the Notification of Finding.

The Corporation agrees with this finding and a record retention policy will be developed and
issued to the field office directors.




OIG Comments

OIG concurs.
